   OFFICE OF INSPECTOR GENERAL




Information Collection on USITC Internet Servers




              Inspection Report
                OIG-IR-02-01




                                           February 16, 2001
Information Collection on USITC Internet Servers                                     OIG-IR-02-01


I.      INTRODUCTION

The United States International Trade Commission (Commission) is an independent, quasi–judicial,
nonpartisan Federal agency established by Congress with broad investigative powers on matters of
trade. The mission of the Commission is twofold: administer U.S. trade remedy laws in a fair and
objective manner; and provide the President, U.S. Trade Representative, and the Congress with
independent, quality advice and information on matters of international trade and competitiveness.
Major Commission activities include: import injury investigations, intellectual property–based
investigations, research, trade information services and trade policy support.

II.     OBJECTIVE

The objective of this inspection was to perform a comprehensive review of the Commission’s
collection of data by its public Internet servers.

III.    SCOPE AND METHODOLOGY

This inspection was conducted between January 25, 2001 and February 5, 2001 at the Commission’s
Office located at 500 E Street, S.W., Washington, DC. The Office of Inspector General (OIG)
interviewed the Trade and Tariff Information Manager and employees in the Office of Information
Services. Commission office directors were given an opportunity to comment on a draft of this
Inspection Report. Those comments were appropriately incorporated.

The OIG reviewed Office of Management and Budget (OMB) guidance, General Accounting Office
(GAO) reports and information available through the web sites of the Chief Information Officers
Council and the General Services Administration. OIG reviewed all Commission public web sites and
sample copies of logs produced by the Commission’s Internet servers. OIG also used analysis tools
available on the Internet.

Based on the information obtained and reviewed, the OIG developed the following independent
findings.

IV.     FINDINGS

The Commission delivers information and services via the Internet using numerous public and non-
public web sites. The public web sites are sites in which the Commission provides public information
and services to the general public. On the Commission’s non-public web sites, access is limited to
employees of the Commission or working groups of government employees. Several web servers that
have various hardware and software configurations service both the public and non-public web sites.
This review focused on the Commission’s public web sites:

Ø Home Page:         The http://www.usitc.gov site serves as a portal to the other public web sites
  of the Commission. This site also contains general information and news about the Commission,
  most agency publications and access to the Harmonized Tariff Schedule. The Commission also
  provides ftp services on this server at: ftp://ftp.usitc.gov/.


                                                   1                        Office of Inspector General
                                                                    U.S. International Trade Commission
          Information Collection on USITC Internet Servers                                                                                                                                                                                  OIG-IR-02-01


          Ø EDIS On-Line: The http://dockets.usitc.gov site provides access to docketing information and
            access to public documents filed with the Secretary's Office in Commission investigations. The
            site can be used to view page images and request print copies of the public documents filed in
            Commission investigations instituted since 1996.
          Ø Section 337 Cases: The http://info.usitc.gov/337 site contains Section 337 case history
            information.
          Ø Sunset Reviews: The http://info.usitc.gov/oinv/sunset.nsf site contains general and scheduling
            information regarding the Commission’s Five Year Sunset Reviews.
          Ø DataWeb: The http://dataweb.usitc.gov site offers various trade and tariff data.
          Ø Library Catalog: The http://205.197.120.8/webopac/cgi/swebmnu.exe?act=3&ini=splusweb site
            contains a searchable copy of the Library Catalog.
          Ø Directory:          The http://radiator.ustic.gov site contains a searchable copy of the
            Commission’s phone book.

                  Log Files

          The Commission’s public web servers and firewall automatically create separate log information
          about visitors to Commission web servers.

          The Commission uses a firewall to collect data regarding any access or attempted access to
          Commission Internet resources. Specifically, the firewall log records the visitor’s IP address
          information and data similar to that collected by the public web servers. The firewall log also records
          attempts by visitors to perform improper actions against agency resources.

          Table 1 below charts specific information collected by the Commission’s public web servers.

                  Information Collected
                                                                                                                                                  http://dataweb.usitc.gov




                                                                                                                                                                                               http://radiator.usitc.gov
TABLE 1




                                                                                              http://dockets.usitc.gov
                                                 http://www.usitc.gov




                                                                                                                         http://info.usitc.gov/
                                                                        ftp://ftp.usitc.gov




                                                                                                                                                                             Library Catalog




                  Date/Time Internet                                                                                                                                                               X
                                                        X                        X                               X           X                        X                        X
                  Server Accessed
                  IP Address of Visitor                 X                        X                               X           X                        X                        X                   X
                  Username                                                       X
                  Server Name & IP Address              X                        X                                           X                        X                                            X
                  Hypertext Transfer Protocol
                                                        X                        X                               X           X                        X                        X                   X
                  Request Method
                  File or Page Requested                X                        X                               X           X                        X                        X                   X
                  Status of Request                     X                        X                                           X                        X                        X                   X
                  Size of File or Page                  X                        X                                                                    X                                            X
                  Time to Complete                      X                        X                                                                    X                        X                   X
                  Visitor’s Browser Type                X                                                                    X                        X                        X                   X
                  Visitor’s Operating System            X                                                                    X                                                                     X
                  Visitor’s referring Web page          X                                                                    X                        X                                            X




                                                                                                                         2                                                                                                         Office of Inspector General
                                                                                                                                                                                                                           U.S. International Trade Commission
Information Collection on USITC Internet Servers                                                                      OIG-IR-02-01


            Cookies

            A cookie is a short string of text that maybe sent from a web server to a web browser
            when the browser accesses a web page. Generally there are two types of cookies:
            session cookies and persistent cookies. Session cookies are short-lived, are used only
            during the browsing session, and expire when the visitor quits the browser or sooner.
            Persistent cookies specify expiration dates, remain stored on the client’s computer
            until the expiration date, and can be used to track visitors’ browsing behavior by
            identifying their Internet addresses whenever they return to a site. GAO-01-147R,
            Federal Use of Cookies.

Our review of the Commission’s use of cookies revealed the Commission does not use any persistent
cookies but uses session cookies on several of its Internet sites (See Table 2). In general, session
cookies are used by the Commission on several sites to collect basic information regarding site access.
Also, session cookies are used on the http://dockets.usitc.gov site to keep track of the number and
quantity of documents a visitor places in a shopping cart until checkout.
 TABLE 2




           Cookies      www.usitc.gov   dockets.usitc.gov   info.usitc.gov   dataweb.usitc.gov      Library Catalog    radiator.usitc.gov
           Session
                              X                X                   X                 X                     X
           Cookies
           Persistent
           Cookie




            Voluntary Submission of Personally Identifying Information

In certain transactions with the public, the Commission collects personally identifiable information
where the visitor voluntarily provides the information. For instance in an email to the Commission,
the individual may provide personally identifying information. We found no areas where the
Commission collects personally identifying information involuntarily or through the use of third
parties or contractors.

On two servers, http://dataweb.usitc.gov and http://dockets.usitc.gov, the Commission provides web
forms which permit visitors to voluntarily submit personally identifying information.

We found in regards to http://dataweb.usitc.gov, visitors are required to register prior to being
granted access to some areas on the site. Data collected during registration includes name, email,
phone, agency or firm type, and agency name. Pursuant to the Paperwork Reduction Act, the Office
of Management and Budget has approved the collection of this information. (OMB No: 3117-0190
Exp Date 1/31/2003). The Commission currently tracks every login, query and list made to evaluate
the impact of visitor activity on system resources. This tracking is performed to improve service as
well as for the purpose of evaluating more expansive offerings in this area. This information is
archived by Commission computers and some data, not including personally identifying information,
have been made available under FOIA.




                                                                     3                                   Office of Inspector General
                                                                                                 U.S. International Trade Commission
Information Collection on USITC Internet Servers                                       OIG-IR-02-01




In regards to http://dockets.usitc.gov, visitors who request copies of documents are requested to
provide their name, phone number, address, delivery method and method of payment. This
information is then provided to a contractor who processes the order. This information is destroyed
after an order is processed.

        Privacy Statement

We reviewed the adequacy of the Commission’s Privacy Statement located at
http://www.usitc.gov/privacy.htm. In general, the statement is adequate but should be more specific
as to give the public more guidance as to what is automatically being recorded by the Commission’s
Internet server log files (see Table 1) and what information is being collected via web forms and
emails and the disposition of that information.

In accordance with OMB Guidance (M-99-18), links to the Privacy Statement should exist at major
entry points to agency web sites. Currently, sites such as, http://info.usitc.gov/337 and
http://radiator.ustic.gov, have no link to the Privacy Statement.

Additionally, the Privacy Statement provides no notice of the use of session cookies.

We requested that the Commission address these issues in its Privacy Statement and the Commission
has agreed to do so.

V.      CONCLUSIONS

Based on our findings, we conclude that currently the Commission is collecting personally identifying
information via its Internet servers only to the extent necessary to perform adequate analysis of site
performance, maintain security and transact business with the general public. We made a
recommendation as to the content of the Commission’s Privacy Statement and that recommendation
was accepted.




                                                   4                          Office of Inspector General
                                                                      U.S. International Trade Commission
